<html>
<title> - EXPORT CONTROL REFORM ACT OF 2018; GLOBAL FOOD SECURITY REAUTHORIZATION ACT OF 2018; GLOBAL ELECTORAL EXCHANGE ACT; AND WOMEN'S ENTREPRENEURSHIP AND ECONOMIC EMPOWERMENT ACT OF 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   EXPORT CONTROL REFORM ACT OF 2018;
                GLOBAL FOOD SECURITY REAUTHORIZATION ACT
                OF 2018; GLOBAL ELECTORAL EXCHANGE ACT;
                    AND WOMEN'S ENTREPRENEURSHIP AND
                    ECONOMIC EMPOWERMENT ACT OF 2018

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

             H.R. 5040, H.R. 5129, H.R. 5274, and H.R. 5480

                               __________

                             APRIL 17, 2018

                               __________

                           Serial No. 115-120

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-812PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 5040, To authorize the President to control the export, 
  reexport, and transfer of commodities, software, and technology 
  to protect the national security, and to promote the foreign 
  policy, of the United States, and for other purposes...........     2
  Amendment in the nature of a substitute to H.R. 5040 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    87
      Amendment to the amendment in the nature of a substitute to 
        H.R. 5040 offered by the Honorable Brad Sherman, a 
        Representative in Congress from the State of California..   174
H.R. 5129, To reauthorize the Global Food Security Act of 2016, 
  and for other purposes.........................................   177
  Amendment to H.R. 5129 offered by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New 
    Jersey.......................................................   180
H.R. 5274, To promote international exchanges on best election 
  practices, cultivate more secure democratic institutions around 
  the world, and for other purposes..............................   181
  Amendment in the nature of a substitute to H.R. 5274 offered by 
    the Honorable Joaquin Castro, a Representative in Congress 
    from the State of Texas......................................   189
      Amendment to the amendment in the nature of a substitute to 
        H.R. 5274 offered by the Honorable Dina Titus, a 
        Representative in Congress from the State of Nevada......   195
H.R. 5480, To improve programs and activities relating to women's 
  entrepreneurship and economic empowerment that are carried out 
  by the United States Agency for International Development, and 
  for other purposes.............................................   196
  Amendment to H.R. 5480 offered by the Honorable Edward R. Royce   219

                                APPENDIX

Markup notice....................................................   234
Markup minutes...................................................   235
Markup summary...................................................   237
The Honorable Christopher H. Smith: Prepared statement...........   238

 
EXPORT CONTROL REFORM ACT OF 2018; GLOBAL FOOD SECURITY REAUTHORIZATION 
        ACT OF 2018; GLOBAL ELECTORAL EXCHANGE ACT; AND WOMEN'S 
         ENTREPRENEURSHIP AND ECONOMIC EMPOWERMENT ACT OF 2018

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up four measures. 
They are all bipartisan. And without objection, all members may 
have 5 days to submit any statements or any extraneous material 
into the record.
    I think everyone was notified yesterday we intend to 
consider today's measures en bloc. And so, without objection, 
the following items previously provided will be considered en 
bloc and are considered as read: H.R. 5040, the Export Control 
Reform Act, Royce Amendment 101 in the nature of a substitute, 
Sherman Amendment 45.
    These are also all in your packets, by the way: H.R. 5129, 
the Global Food Security Reauthorization Act with Smith 
Amendment 85; H.R. 5274, the Global Electoral Exchange Act with 
the Castro amendment in the nature of a substitute to H.R. 5274 
and the Titus Amendment 38; and I have H.R. 5480, this is the 
Women's Entrepreneurship and Economic Empowerment Act and Royce 
Amendment 103.
    [The information referred to follows:] 
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. And I now recognize myself to speak on 
today's business.
    So, first, we have the Export Control Reform Act of 2018. 
This is a bipartisan bill that would replace the outdated 
Export Administration Act of 1979, which has been in lapse for 
the last quarter century. And it would replace it with a 
permanent modern export control authority. So, obviously, this 
step is long overdue.
    Crucially, the bill closes gaps in our export controls that 
could permit transfers of cutting-edge technology like 
artificial intelligence and advanced semiconductors to 
potential adversaries such as Beijing. It also ensures that 
transfers of sensitive manufacturing knowhow, including through 
joint ventures, are subject to more rigorous export controls. 
This act mandates an urgent effort to identify and 
appropriately control critical emerging technologies, 
technologies that are not currently subject to export controls, 
but which could be essential to our U.S. national security. 
Together with SIFIs reforms, this bill will enable the U.S. to 
remain a leader in innovation, strengthen our industrial base, 
and protect technologies essential to national security.
    Next, we consider the bipartisan H.R. 5480. This is the 
Women's Entrepreneurship and Economic Empowerment Act. Women in 
developing countries around the world face binding constraints 
to entrepreneurship and economic participation. So, we have 
today over 1 billion women that are left out of the formal 
financial system, and that leaves them without access to 
savings or credit or insurance or basic property rights.
    What this legislation does is expands USAID's 
microenterprise assistance authority to include support for 
small and medium-sized enterprises which create four out of 
every five jobs in emerging markets. When women exert greater 
influence over household finances, economic outcomes for 
families improve and, obviously, childhood survival rates go 
up. Food security and educational attainment are increased.
    This isn't just good for local communities in these 
developing countries. Achieving global gender parity in 
economic activity could add tens of trillions of dollars to 
annual GDP growth around the planet by 2025. This helps us.
    Next, we have Chairman Smith's H.R. 5129. This is the 
Global Food Security Reauthorization Act of 2018. Last 
Congress, we came together in a bipartisan way to enact the 
Global Food Security Act. Since enactment in 2016, the Global 
Food Security Strategy has helped 11 million small farmers gain 
access to new technologies. It has unlocked $2.7 billion in 
loans, $830 million in direct private sector investment, and it 
has reduced poverty by an average of 19 percent in the focus 
areas. These programs have also allowed us to reach 27 million 
children under the age of 5 with vital nutrition assistance. 
And we did this without increase spending. H.R. 5129 continues 
this good work by extending the existing authorization for an 
additional 2 years.
    Finally, I want to thank Representatives Castro and Meadows 
for introducing H.R. 5274. This is the Global Electoral 
Exchange Act. Healthy societies depend on elections that 
accurately reflect the decision of voters. The world has a 
shared stake in the integrity of election mechanisms. The nuts 
and bolts of how people cast their votes and how these votes 
are counted free from manipulation is the subject here, and 
this bill would strengthen this work by authorizing the 
Secretary of State to run exchanges to better equip those who 
organize and administer elections in their home countries.
    And I now recognize the ranking member for his remarks.
    Mr. Engel. Thank you, Mr. Chairman. Thank you very much for 
calling this markup. We have four good measures before us 
today, and I am happy to support them all. As always, I want to 
thank all of our members on both sides of the aisle for their 
hard work.
    Mr. Chairman, I want to thank you for putting forward the 
Export Control Reform Act. As you mentioned, it has been almost 
four decades since the law on export controls was revised. The 
old law is filled with out-of-date provisions that simply don't 
reflect our current national security priorities. It also 
expired in 2001.
    So, for the last 17 years, the legal authority for 
regulating sensitive exports has been based on emergency 
authority contained in Executive orders. That is why this bill 
is so essential. It updates the export control system to 
reflect today's reality of the way these technologies are 
developed and transferred in global trade. It provides a new 
approach to help mitigate the risks of sensitive technologies 
falling into the hands of our adversaries, and it reasserts the 
role of Congress in addressing the important national security 
priority. I am proud to be the lead Democratic cosponsor of 
this legislation and I urge all members to support it.
    Next, I want to turn to the Global Food Safety 
Reauthorization Act. This is another great example of 
bipartisan common-sense cooperation on vital foreign policy 
issues. I am an original cosponsor, and I am pleased to see 
this bill on the agenda.
    Nearly 800 million people around the world live without the 
certainty that their families will have enough to eat. Underfed 
populations are less productive and more vulnerable to disease. 
Without reliable access to food, it is much harder for a 
country to achieve stability and prosperity. So, we have an 
interest and a moral obligation in tackling this problem as 
part of our foreign policy.
    This bill reauthorizes the successful Global Food Security 
Act which codified the Feed the Future Program. We are already 
seeing some excellent results from this program, a 26 percent 
drop in child stunting. Nine million more people are above the 
poverty line; 1.7 million more families are living without 
hunger, and $2.6 billion earned by Feed the Future farmers in 
new agricultural sales. This is a great bill, and I thank the 
drafters, Representative Chris Smith and Betty McCollum, for 
their hard work, and encourage all my colleagues to support it.
    Fighting global poverty is a critical issue that our 
committee faces, and one of the most effective ways we can 
improve global prosperity is to empower women throughout the 
world. That brings me to the next measure for today's markup, 
the Women's Entrepreneurship and Economic Empowerment Act. This 
is important. It is a very important piece of legislation, 
introduced by Chairman Royce and Congresswoman Frankel. It 
expands U.S. development policy to empower women entrepreneurs 
in developing countries.
    Women and girls are powerful, and we know what happens when 
that power and potentials are unleashed. Communities thrive. 
Local and global economies grow. Societies prosper and become 
more inclusive and equitable. If women were full participants 
in the global economy, we would see an additional $28 trillion 
in growth in global GDP by the year 2025.
    Women in developing countries face a series of gender-
specific constraints to moving up the economic ladder, 
including lack of access to financial services. Women-owned 
small- and medium-sized enterprises face almost a $300 billion 
credit gap. The Women's Entrepreneurship and Economic 
Empowerment Act works to address that disparity by expanding 
U.S. development assistance to reach those small- and medium-
sized enterprises.
    This bill is a welcomed step toward improving women's 
economic prospects, but there remain other barriers to women's 
economic empowerment, including issues related to maternal and 
reproductive health. There is a well-documented link between 
improved access to contraception and women's economic 
empowerment. Women who are able to plan their families are more 
likely to receive an education, raise their standards of 
living, and climb out of poverty. These benefits aren't limited 
to a woman herself. In homes where parents have the ability to 
decide the number of children they have, their children tend to 
be healthier, do better in school, and grow up to earn higher 
incomes.
    I am pleased to be an original cosponsor of this, and I 
urge all of our members to join me in supporting it. And I hope 
that we can build upon the good work and address all the 
barriers that women and girls face, so that they can achieve 
full economic empowerment.
    And lastly, I turn to the Global Electoral Exchange Act, 
introduced by Representatives Castro and Meadows, which would 
establish exchange programs at the State Department that focus 
on strengthening the electoral mechanisms around the world. It 
is in America's interest that we promote credible elections, 
and having exchange programs to share best election practices 
is an excellent idea. We should be doing all that we can be 
doing to promote democracy.
    I support this bill, along with the other measures we are 
considering today, and I again thank all our members on both 
sides.
    And I yield back, Mr. Chairman. Thank you.
    Chairman Royce. Thank you.
    We go now to Mr. Chris Smith, the author of the Global Food 
Security Reauthorization Act.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you, 
Mr. Engel, for your strong support for this as well. Both of 
you are cosponsors, as is Betty McCollum, who is the principal 
Democrat cosponsor, and my good friend and colleague, Karen 
Bass, who is also one of the leading original sponsors as well. 
Thank you.
    This is bipartisan legislation that has worked and this is 
the reauthorization to continue, and, hopefully, to bring 
additional emphasis to some of the areas that we have missed in 
the original enactment of this landmark legislation.
    I would remind my colleagues that there are 800 million 
hungry people in the world today. Not only do children still 
die from malnutrition, we know that, because of malnutrition, 
those children are subjected to other sicknesses, opportunistic 
infections. Malaria takes an even more devastating toll on them 
because of their malnutrition.
    Feed the Future, this legislation, and the underlying 
program which began in the Bush administration, was 
strengthened and expanded in the Obama administration, and has 
now been continued and strengthened under the leadership of 
President Trump, and continues to reach out to the most 
vulnerable. As you pointed out, Mr. Chairman, we have seen a 
significant drop in poverty, some 19 percent, and the drop in 
child stunting. And as I travel throughout the world, 
particularly in Africa and places like Guatemala, which has had 
a huge stunting problem, they have joined the effort to provide 
nutrition to young people, especially mothers and mothers 
carrying children. Stunting has dropped significantly.
    And why is stunting so bad? Obviously, the impact it has on 
the individual, their diminished capabilities intellectually, 
and the like. If the food and nutrition is there, especially in 
the first 1,000 days from conception to the second birthday, 
and then, hopefully, God willing, it continues, we have 
stronger, more resilient children and, then, young adults and, 
then, adults to live out a life that is far more fruitful than 
when they are carrying a number of sicknesses.
    This authorization bill emphasizes the importance of de-
worming initiatives. Among the neglected tropical diseases, 
intestinal worms account for nearly 80 percent of neglected 
tropical disease prevalence, affecting close to 1 billion 
people all over the world. These worms undercut our nutrition 
interventions and can lead to death by malnutrition or lifelong 
stunting as well. We need to combine our nutrition 
interventions not only with coordinated de-worming campaigns, 
but also with water sanitation and health interventions that 
change people's behavior. WASH training helps ensure people 
limited exposure to worms such as by washing and peeling 
vegetables or something as simple as giving children shoes to 
wear if they walk on worm-infected soil, so that they don't get 
sick again.
    Again, I will ask unanimous consent that my full statement 
be made a part of the record. But this legislation I think will 
save many lives. And I thank you again for bringing it to the 
committee today.
    Chairman Royce. We go now to Mr. David Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to you 
and to the ranking member for holding this markup today of 
these bipartisan measures. As always, I appreciate the way our 
committee works together across the aisle in moving important 
reforms and authorizations.
    I am pleased to support H.R. 5129, the Global Food Security 
Reauthorization Act, which will extend Feed the Future until 
2021, ensuring that the United States Government remains at the 
forefront of fighting global hunger by providing assistance to 
millions of hungry and vulnerable people around the world in 
order to build sustainable food systems, improve resilience, 
expand agricultural markets, and improve nutrition for local 
communities. The Feed the Future Program has had a remarkable 
success, as outlined in its 2016 progress report showing 
statistically-significant declines in poverty in 11 out of 17 
focus countries.
    I am also pleased to join with my colleagues, Congressman 
Smith and Congresswoman McCollum, as well as the chair and 
ranking member, as a cosponsor of this important legislation, 
and I urge my colleagues to support it.
    I am also pleased to support H.R. 5480, the Women's 
Entrepreneurship and Economic Empowerment Act, introduced by 
Chairman Royce and Congresswoman Frankel. Though the United 
States already does a lot of incredible work to support the 
empowerment of women and girls around the world, this 
legislation would expand programs to ensure that all USAID 
projects and activities are shaped by a gender analysis and 
gender equality, and female empowerment is integrated 
throughout the agency's program cycle.
    This bill will expand USAID's microenterprise development 
assistance to include small and medium enterprises, 
particularly those owned, controlled, and managed by women, and 
will institute requirements, so that we can track the 
implementation of this bill. I strongly support these efforts 
and thank my colleagues for their work on behalf of women and 
girls.
    And finally, I am pleased to support H.R. 5274, the Global 
Electoral Exchange Act, introduced by my friend and colleague, 
Congressman Castro. This smart legislation will create an 
exchange program for election officials in order to exchange 
best practices between the United States and other countries. 
At a time when democratic systems are under attack across the 
globe, this legislation will help educate election officials on 
best practices for administering an election. I am also a proud 
cosponsor of this legislation and urge my colleagues to support 
it as well.
    I thank you, again, to all of my colleagues for working on 
these important pieces of legislation, and thank you again to 
you, Mr. Chairman and the ranking member, for holding this 
markup today.
    And with that, I yield back.
    Chairman Royce. We go now to Ileana Ros-Lehtinen of 
Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    It has been a long time since Congress has been able to 
reform some of our outdated laws. The chairman and ranking 
member's Export Control Reform Act is a much-needed update to 
the old Export Administration Act of 1979. And while I do 
applaud this measure, as well as your efforts to reestablish 
strong congressional oversight of export controls, I do wish 
that we had moved away from the current rescission process. The 
bill allows for a rescission of a country's designation as a 
state sponsor of terror (SST) to continue to operate under the 
current mechanism. This allows for the administration, any 
administration, to remove a country from the SST list and only 
by passing a joint resolution of disapproval can Congress block 
this decision, meaning we need a veto-proof majority, very 
difficult to do.
    And I look back at the most recent decisions that removed 
SST countries, Cuba and North Korea, and think that Congress 
was really powerless to prevent these moves. We are missing an 
opportunity here and are, again, allowing the administration 
too much leeway. We have seen that some administrations will 
bargain an SST designation for next to nothing, and we will 
have little to prevent that. I am dismayed that we aren't 
giving ourselves the proper oversight over SST designations, 
and I hope, Mr. Chairman and Ranking Member, that we can find a 
way to modify this mechanism going forward.
    I would also like to express my strong support for my 
colleague Chris Smith's bill, the Global Food Security 
Reauthorization Act. With nearly 800 million hungry people 
worldwide, addressing the challenge of food insecurity is both 
a moral and national security imperative. Hunger is a leading 
factor driving so much of the instability and violence that we 
see in the world today. And by investing in stronger food 
systems, we can help develop more resilient communities that 
are able to withstand these pressures.
    We need proper oversight and a strategy that makes sure 
USAID and its partners are fully integrated in achieving U.S. 
interests. This bill ensures that strategy remains in place, 
and I offer the bill my strong support. Congrats, Mr. Smith.
    I also want to speak in support of my friend Joaquin 
Castro's Global Electoral Exchange Act. At a time when bad 
actors such as Russia have been proven to meddle in other 
nations' elections, including our own, it is more important now 
than ever that we do what we can to ensure the validity and 
security of our electoral process. This bill is a tool that we 
can use to not only advance and protect our interests by 
ensuring that outside actors cannot work to manipulate election 
results, but it also serves to advance our democratic ideals.
    I do want to note that elections alone do not make a 
democracy. We saw that last month in my native homeland of Cuba 
with the sham selections. Really, there were no elections set 
up by the Castro regime, and we are set to see the same fraud 
taking place in Venezuela next month with Maduro's sham snap 
elections. And with this farce of a transition of power set to 
happen tomorrow in Cuba, this bill serves to remind us that the 
people of Cuba are still denied their God-given rights. Until 
there are free, fair, and transparent elections in Cuba, in 
Venezuela, or anywhere in the world, we need to continue to 
support the people whose rights are being denied, which is why 
initiatives such as this one are so important in promoting 
sound election practices around the world.
    And finally, Mr. Speaker--Mr. Chairman, I elevated you or 
demoted you, I am not sure--I also support your bill with 
Ranking Member Engel, the Women's Entrepreneurship and Economic 
Empowerment Act. Sadly, women continue to face insurmountable 
barriers that deter their availability to becoming full and 
equal members of society. This bill seeks to update USAID 
policy to chip away at those barriers, improve women's working 
environments, support their property rights, and aid them in 
providing access to greater economic opportunity. It is our 
responsibility to empower women, and this bill does so through 
our USAID programs.
    Congratulations, Mr. Chairman and Ranking Member, for a 
fine set of initiatives that we can all support.
    Chairman Royce. Well, I thank the chairman emeritus, and I 
recognize her for her longstanding support for strengthening 
congressional oversight over U.S. foreign policy and for 
combating terrorism.
    I would make a few points on the Export Controls Reform 
Act, where it does move in the direction that you want to see, 
maybe not as robustly as you wanted to see it. But what it does 
do is it strengthens the congressional oversight over the 
delisting of a state sponsor of terrorism. And it does that 
really by quadrupling the time by fourfold that a designated 
country has got to refrain from sponsoring terrorism before 
being delisted. So, it is no longer 6 months; it is 24 months. 
I think this gives us a chance for much better evidence that a 
country has truly abandoned terrorism, but it also doubles the 
time that Congress has to review the proposed removal of the 
country from the list. So, it goes from 45 days to 90 days, and 
that improves our oversight. And it, I think, gives us much 
more time to reject a removal if we find that objectionable. 
So, it helps in that way as well.
    But one of the changes that I think will work best for us 
and the committee is that it requires that the administration 
notify and brief Congress at the front end, when they initiate 
a review of a designated country's potential removal from the 
list. So, I think all of that puts us in a better position than 
we are now, and I did want to share that with you. And I 
understand your plight.
    Ms. Ros-Lehtinen. Well, thank you very much. Thank you, Mr. 
Chairman.
    Chairman Royce. We go now to Lois Frankel from Florida, the 
cosponsor of our Women's Entrepreneurship and Economic 
Empowerment Act.
    Ms. Frankel. Thank you, Mr. Royce and Mr. Engel, for your 
extraordinary bipartisan leadership. And I want to thank my 
colleagues for their good work on all these bills, which I 
support.
    I want to specifically focus my remarks on the Women's 
Entrepreneurship and Economic Empowerment Act, which I am 
honored to be one of the original cosponsors. The bill 
recognizes that, when women around the world are educated and 
have access to the tools for economic success, their 
communities are safer, stronger, and more peaceful, and so is 
the world.
    Living in the United States where there is so much 
opportunity, it is hard to comprehend the hardships and 
obstacles that girls and women face in so many parts of the 
world. I think of Fatime, a young girl born in Mali. At just 8 
months she may be cut, subjected to general mutilation. By age 
12, her father may sell her for marriage to a man she has never 
met. Or Nasha, a young woman in Nigeria, desperate for an 
education, who has to walk miles fearful of sexual violence or 
kidnapping just to get to school. Or Camilia, a grown woman in 
Pakistan who dreams of starting her own business and being able 
to care for her family, but discriminatory laws prohibit her 
from owning property or being able to access credit. She is 
among the 1 billion women excluded from the formal financial 
system.
    And millions of young girls face child marriage, sexual 
assault, human trafficking, genital mutilation, femicide. I 
could go on. One in three suffer gender-based violence. Access 
to health care and education is limited. Laws in their 
countries restrict their employment, property rights, access to 
credit and other financial resources.
    So, it is not surprising that women and girls are the 
majority of the world's poor. Now here's the thing: Because of 
so many, too many cruel and unfair practices against girls and 
women, the world is poorer, too. According to McKinsey Global 
Institute, a leading international private sector think tank, 
if we change this equation and advance women's equality, we 
could add $28 trillion to the global GDP in just 7 years.
    And there is an undeniable link between women's economic 
success and global prosperity, and this excellent bill makes it 
a U.S. development policy to reduce gender disparities related 
to economic opportunity; to strive to eliminate gender-based 
violence; to support women's property rights, and increase the 
capability of women and girls to determine their own future. 
The bill requires that 50 percent of USAID's resources for 
small and medium-sized enterprises be targeted to reach 
enterprises owned and managed and controlled by women. It 
codifies USAID's practice of shaping policy and activities 
through a gender analysis which should examine gender 
differences in access to resources and opportunities, different 
impacts of policy and programs on men and women, and provide 
recommendations to narrow the gender gaps and improve the lives 
of women and girls.
    And to ensure that our development assistance is reaching 
women, this legislation mandates that USAID track and measure 
improvements in women's economic empowerment, including 
employment, access to financial services, enterprise 
development, earnings and control over income, and property and 
land rights. In addition, this legislation expands the scope of 
development assistance for microenterprises to micro-, small-, 
and medium-sized enterprises to reflect the change in the 
field.
    Investing in women's empowerment is not only humane, it is 
good common sense, because when women exert greater influence 
over household finances, economic outcomes for families 
improve, childhood survival rates increase, food security and 
educational attainment also increase. Women also tend to place 
a greater emphasis on household savings, which improves 
families' financial resiliency. When girls and women do better, 
their nations do better. Women are potent forces for peace and 
prosperity. When they succeed, the world will succeed.
    And I thank my colleagues for joining me in support of this 
important bill.
    And I yield back.
    Chairman Royce. Thank you.
    We now go to Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    I appreciate Chairman Ed Royce and Ranking Member Eliot 
Engel for their bipartisan efforts to bring the Export Control 
Reform Act before the committee. This bill helps protect 
industry and commerce in the United States by preventing 
technological theft while reducing the risks of other countries 
misusing controlled items and technologies for nefarious 
purposes.
    Importantly, this bill would replace the Export 
Administration Act, which lapsed in 2001. While export controls 
have been maintained through emergency powers granted to the 
President, this legislation would update and strengthen our 
export controls to maintain the pace for modern international 
and digital trade without harming trade.
    Foreign investment in the United States creates economic 
opportunity, but it also has created gaps in our technological 
security. Currently, foreign-owned companies in the United 
States often do not need a license to receive dual-use 
technology normally subject to such controls when exported 
abroad. This bill corrects and updates this flaw for the modern 
era.
    This legislation also would adapt to the advances in 
technology by mandating an interagency process to identify 
emerging technologies that need to be protected by export 
controls, which will allow export controls to stay up-to-date. 
This bill protects American technology from theft and abuse and 
ensures that our export control system remains robust and 
effective.
    I am grateful to support and cosponsor H.R. 5040, the 
Export Control Reform Act of 2018, and urge its passage.
    Additionally, as a former election observer for the 
International Republican Institute to Bulgaria, and as a host 
for election observation by Ambassador Peter Burian of Slovakia 
during the Republican primary for President, I especially 
appreciate the Global Electoral Exchange Act, by Congressman 
Joaquin Castro, and urge its passage.
    I yield back.
    Chairman Royce. We go now to the author of the Global 
Electoral Exchange Act, Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman Royce and Ranking Member 
Engel, for bringing these measures before us today, and for 
your leadership on this committee. I want to say thank you to 
all the members whose bills are before us today for your hard 
work.
    The bills considered today, including the Export Control 
Reform Act, Global Food Security Reauthorization Act, and 
Women's Entrepreneurship and Economic Empowerment Act, address 
important issues in the world, and I am pleased to support all 
of them.
    Included in this package is a bill I authored with 
Representative Mark Meadows of North Carolina, before the 
committee today, the Global Electoral Exchange Act, or H.R. 
5274. In the last decade, we have seen democracies around the 
world in retreat, including some in our own backyard. This is 
in contrast to prior years. In countries around the world, 
democracy activists and well-intentioned leaders strive to 
create more inclusive societies, but face significant 
challenges, including lack of institutional knowledge of 
electoral processes.
    An election is a complex endeavor and an exercise a society 
undertakes together. It requires an engaged public, robust 
institutions, and a transparent, technically-sound electoral 
mechanism. Such an electoral mechanism must include a secret 
ballot, inclusive voting systems, chain of custody, neutral 
instructions to voters, and so much more of what may be 
considered good electoral practices.
    When these electoral mechanisms are inadequately 
transparent or technically unsound, the legitimacy of an 
election and its results are in question. We saw this firsthand 
in Kenya and Honduras over the last year, where electoral 
failure led to election violence and a questionable outcome.
    The State Department and USAID already engage in excellent 
work, in partnership with groups like the National Endowment 
for Democracy, the National Democratic Institute, International 
Republican Institute, and International Foundation for 
Electoral Systems, supporting democracy worldwide.
    This bill would establish exchange programs with other 
countries, administered by the State Department, for 
individuals involved in the conduct of elections. When we bring 
folks over here to show them how we do things and send 
Americans to other countries to see how elections are conducted 
overseas, we can have candid conversations on how all of us can 
improve these processes. These educational programs would 
benefit both societies abroad keyed on democratizing and our 
own States and cities right here in the United States.
    I would like to thank again my coauthor, Mark Meadows. I 
believe he is at an OGR hearing and can't be here right now. 
But he and his staff put in a lot of work also, and I would 
like to say thank you and ask for my colleagues' support on 
this.
    Chairman Royce. Thank you.
    We go now to Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman, Ranking Member Engel. 
I want to thank you for holding today's markup, and especially 
thank you and the other members of this committee for your work 
to advance H.R. 5480, the Women's Entrepreneurship and Economic 
Empowerment Act. And I say that as a father of four daughters.
    Women make up approximately 40 percent of the world's 
workforce; yet, are restricted from contributing to their 
economies due to economic barriers such as access to credit and 
other financial services. Due to this, less women are able to 
start or grow their own businesses. Research suggests that 
leveling the financial playing field for women could result in 
$28 trillion to the annual GDP by 2025, and that is why I would 
like to offer my strong support for this bill.
    This legislation will empower women's entrepreneurship by 
expanding U.S. assistance to women-owned and -managed small- 
and medium-sized enterprises. I believe that a world in which 
women have access to the same economic opportunities as men is 
a world that will be more prosperous and more stable. So, I 
encourage my colleagues to support the passage of this measure.
    And I yield back.
    Chairman Royce. Thank you.
    We go to Dina Titus of Nevada.
    Ms. Titus. Well, thank you, Mr. Chairman and Ranking 
Member.
    I, too, support all of these bills and think they are 
excellent pieces of legislation, and appreciate the work that 
their sponsors have done to bring them to this point.
    I would like to speak specifically, though, about the 
Global Electoral Exchange Act, and salute Congressmen Castro 
and Meadows for introducing this bill. I am a cosponsor of it, 
and I appreciate, also, the chairman including my amendment en 
bloc today.
    The Global Electoral Exchange Act will help promote best 
election practices through a global electoral exchange program 
to foster the growth of democracy around the world. As a member 
of the House Democracy Partnership, which works with developing 
democracies to strengthen their institutions, I can attest to 
the importance of strong electoral processes in bolstering 
democracy and promoting economic development.
    According to the World Health Organization, roughly 15 
percent of the earth's population has a disability and 80 
percent of those persons live in developing countries. 
Inclusion of persons with disabilities is a fundamental part of 
democracy, and this must extend to the electoral process as 
well. Unfortunately, barriers continue to exist around the 
world that limit these folks to their full and effective 
participation in elections. So, therefore, they aren't able to 
enjoy aspects of life and fulfill their potential.
    My amendment would ensure that the best practices shared 
through this program would also include those related to 
equitable access to polling place, voter education information, 
and voting mechanisms for persons with disabilities. By 
recognizing this need, the U.S. is continuing its role as a 
leader in disability accommodation in all aspects of life here 
at home and around the world.
    And I thank you and yield back.
    Chairman Royce. Thank you.
    We go to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman, and I appreciate you 
bringing up these important pieces of legislation, and I 
support them all.
    I want to give a strong support for the Export Control 
Reform Act. I support this legislation completely, and I would 
like to see it in the future expand to cover other forms of 
research, including biotech, including plant, animal, and 
medicine. These are also vital to national security, and I look 
forward to offering amendments in the Rules Committee and also 
on the House Floor when this bill comes up for a vote on its 
way to becoming a law.
    And also, to give a shoutout for H.R. 4030, the State 
Sponsors of Terrorism Review and Enhancement Act, that a lot of 
the portions of that are in the Export Control Reform Act, and 
I look forward to that piece of legislation coming up also.
    And I yield back.
    Chairman Royce. We will look forward to working with the 
gentleman on biotech and some of these other considerations 
that should be included.
    Mr. Brad Schneider of Illinois.
    Mr. Schneider. Thank you. I just want to say I am glad we 
have these bills here today. I am glad to support all of them.
    Chairman Royce. Thank you, Mr. Schneider.
    Any further members seeking recognition?
    Mr. Tom Garrett.
    Mr. Garrett. Thank you, Mr. Chair.
    Again, I would echo the sentiments of our colleagues on 
each side of the aisle. Proud of each of these four pieces of 
legislation.
    Very briefly and specifically, on H.R. 5480, I would 
commend yourself, Ranking Member Engel, and Member Frankel. 
Member Engel said--and I will adopt fully his comments--that 
these actions to empower women economically will ``help 
communities thrive, help economies grow, help opportunity 
expand.'' I wholeheartedly agree, and I would add it will also 
help reduce radicalization, expand hope, which stymies 
extremist recruitment, and will foster a more tolerant and open 
society across the globe. Such a good bill. In other words, 
this act helps not only women across the globe, but people 
everywhere. And, Mr. Chairman, I would argue it will save many 
uncountable lives.
    Also, on H.R. 5040, the Export Control Reform Act, I 
commend the chair and ranking member on their ability to 
determine sort of a glaring problem that had been delayed in 
being addressed for decades. This is a good, bipartisan, and 
overdue reform. Just as Mr. Yoho referenced hopes that we talk 
more about biotech, et cetera, I understand this might not be 
the committee of purview, but I hope that this legislation will 
embolden us to address the glaring EB-5 visa situation, which 
essentially were sold and allow four out of five of these to go 
to Chinese, which, once they are here, allows them nearly 
unlimited access to sensitive technology.
    Again, I commend the ranking member, the chair, and the 
committee as a whole for advancing these common-sense and good, 
bipartisan initiatives.
    Thank you, Mr. Chair.
    Chairman Royce. Thank you, Mr. Garrett. And I think you 
raise a point there, and we should confer with Judiciary, with 
Mr. Goodlatte, on that issue.
    Mr. Brad Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman. I want to thank you 
for working with me on an amendment to H.R. 5040, which is the 
Export Control Reform Act. I think the bill is excellent. I 
think the amendment makes it better.
    This amendment will ensure that the Department of Commerce, 
which licenses the exports of dual-use items, explicitly 
gathers information and takes into consideration whether a 
major export of controlled equipment or technology will have a 
negative impact on the production of items that are needed for 
our own national security here in the United States.
    So much of export control is that we look at a particular 
weapon system and say, should that country be trusted with that 
weapon system? But what is just as important is that we control 
the export of manufacturing equipment and technology. We export 
far less than any other major country as a percentage of our 
GDP. When an American firm sends technology and the ability to 
produce critical items outside the United States, we could call 
that as one small export, but it has a negative impact on our 
national security, industrial base, and our high-tech 
workforce.
    Even when we are exporting this material to an ally, what 
we are doing is making that ally the country that will do the 
manufacturing using our technology. Well, that may not be good 
for jobs and our economy, but this is not a pair of shoes. This 
is not a television set. When we export jobs and industrial 
base in the military sector, in the dual-use sector, we 
undermine our ability to produce what our military needs, 
should the case arise. Having a robust toy-making industry 
might be good for the United States. Having a robust industry 
in the area of weapon systems is critical for our national 
security.
    Not only that, but by transferring this technology and 
industrial capacity, we create a circumstance where some other 
country will determine whether the produce of that industry, 
whether the weapon systems that are manufactured or the dual-
use items that are manufactured, will be exported to this or 
that additional country. Right now, when weapon systems and 
dual-use items are exported, it comes to not only the 
administration of this country, but often comes to this 
committee. But, if we export the manufacturing capacity, the 
government of Italy or the government of Japan is not going to 
be submitting reports to the United States Congress giving us 
60 or 90 days to approve or disapprove of arms or dual-capacity 
material export. So, I think that it is important, that we look 
at the industrial base as part of our national security 
infrastructure.
    I want to take this moment, also, to voice my support for 
the other bills that are before us. I particularly want to 
associate myself with the comments of Ms. Frankel from Florida 
and her excellent work on the Women's Entrepreneurship and 
Economic Empowerment Act, and associate myself with Mr. 
Castro's comments on the importance of the Global Electoral 
Exchange Act and commend him for his work on that.
    Again, Mr. Chairman, thank you for working with me on this 
amendment and including it in the en bloc package, and I urge 
support of the motion.
    Chairman Royce. Thank you.
    I think Mr. Sherman puts his finger on the heart of the 
matter here, because the question is no longer can it be the 
export of individual systems on dual use; it has to be the 
export of the knowhow. And your point about making certain we 
have re-export controls, so that if we transfer it to an ally, 
they cannot transfer it, is equally applicable to the question 
of making certain that the knowhow itself is not transferred, 
in all the ways that we try to do that in this measure.
    And as we move forward, I just wanted to thank Mr. Sherman 
for his contributions to this overhaul. It has been a long time 
coming, and I think our efforts here are to identify every one 
of these examples from past mistakes and figure out how we 
close those loopholes, especially given the new technologies 
that are coming.
    Do any other members seek recognition?
    [No response.]
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc. All those in favor say 
aye.
    [Chorus of ayes.]
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to.
    And without objection, the measures considered en bloc are 
ordered favorably reported as amended, and staff is directed to 
make any technical and conforming changes. And the Chair is 
authorized to seek House consideration under suspension of the 
rules.
    That concludes our business for today. And I want to thank 
Ranking Member Engel and all of our committee members for their 
contributions and their assistance with this markup today.
    The committee stands adjourned.
    [Whereupon, at 10:56 a.m., the committee was adjourned.]

                                     
                                   

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
